r-.

'i

tf
No:

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

PROOF OF SERVICE

I, Mr. Amos Westmoreland, Jr., do swear or declare that on this date, August

2020, as required by

Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS. PETITION FOR A WRIT OF CERTIORARI and APPENDIX, and Motion
For Leave to Exceed Page Limitation: on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing to each of them and with first-class postage
prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Georgia Attorney General. Christopher M. Carr
Georgia Department of Law
40 Capitol Square, S.W.,
Atlanta. Georgia 30334-1300

I declare under penalty of perjury that the following is true and correct.
Executed on August,

,2020

\

L La
L
Mr. Amos Westmoreland, Jr., Pro Se
1412 Plunkett Road
Unadilla, Georgia 31091

70

